TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     Fiscal Year 2008 Statutory Audit of
                      Compliance With Legal Guidelines
                  Prohibiting the Use of Illegal Tax Protester
                           and Similar Designations



                                           May 23, 2008

                              Reference Number: 2008-40-124




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                  May 23, 2008


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT
                DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Fiscal Year 2008 Statutory Audit of Compliance
                               With Legal Guidelines Prohibiting the Use of Illegal Tax Protester and
                               Similar Designations (Audit # 200840004)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) complied with IRS Restructuring and Reform Act of 1998 (RRA 98)1 Section (§) 3707 and
 its own internal guidelines that prohibit IRS officers and employees from referring to taxpayers
 as Illegal Tax Protesters or any similar designations.

 Impact on the Taxpayer
 Congress enacted RRA 98 § 3707 to prohibit the IRS from labeling taxpayers as Illegal Tax
 Protesters or any similar designations. Overall, the IRS has eliminated most uses of this and
 similar designations. However, in some instances, IRS employees did refer to taxpayers by these
 designations in case narratives, which could stigmatize taxpayers and cause employee bias in
 future contacts with these taxpayers.

 Synopsis
 Prior to enactment of the RRA 98, taxpayers could be designated as Illegal Tax Protesters if their
 tax returns or correspondence contained specific indicators of noncompliance with the tax law,
 such as the use of arguments that had been repeatedly rejected by the courts. Once taxpayers’
 accounts were coded with Illegal Tax Protester indicators, certain tax enforcement actions were

 1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                       Fiscal Year 2008 Statutory Audit of Compliance With Legal
                         Guidelines Prohibiting the Use of Illegal Tax Protester
                                       and Similar Designations



accelerated. The designation was also intended to alert employees to be cautious so they would
not be drawn into confrontations with taxpayers. The RRA 98 prohibits the IRS from using
Illegal Tax Protester or any similar designations. The Treasury Inspector General for Tax
Administration is required to annually evaluate IRS compliance with this prohibition.2
The IRS has not reintroduced past Illegal Tax Protester codes on the Master File,3 and formerly
coded taxpayer accounts have not been assigned similar Master File designations. In addition,
the Internal Revenue Manual4 and current publications do not have any Illegal Tax Protester
references. However, there were some designations
identified in the case narratives. In 430 instances out of
                                                                    In some instances, IRS
approximately                                                  employees referred to taxpayers
65.2 million records and cases, IRS employees improperly          as Illegal Tax Protesters or
referred to taxpayers as Illegal Tax Protesters or similar       similar designations in case
designations.                                                              narratives.

IRS management disagrees that employee use of Illegal
Tax Protester or any similar designation in a case narrative is a potential violation of the law.
We continue to believe that the use of these designations in case narratives might stigmatize
taxpayers and cause employee bias in future contacts with these taxpayers. Electronic case
narratives are available to other IRS employees for future reference and might affect the opinions
and actions of employees working the taxpayers’ cases.
Notwithstanding their disagreement with our interpretation of the law, IRS management advised
us that they have taken a conservative approach by implementing a policy prohibiting employees
from using Illegal Tax Protester or any similar designation. In August 2007, management issued
a memorandum to all employees reminding them of this policy. Through IRS management’s
continued efforts, the total number of improper designations made by IRS employees has
decreased.




2
  Internal Revenue Code § 7803(d)(1)(A)(v) (2000 Suppl. 4).
3
  A database that stores various types of taxpayer account information. This database includes individual, business,
and employee plans and exempt organizations data.
4
  A manual containing the IRS’ internal guidelines.
                                                                                                                       2
                   Fiscal Year 2008 Statutory Audit of Compliance With Legal
                     Guidelines Prohibiting the Use of Illegal Tax Protester
                                   and Similar Designations



Response
We made no recommendations in this report. In their response to the draft report, IRS
management stated their belief that the use of Illegal Tax Protestor or similar designations does
not affect the way in which the IRS deals with taxpayers who disapprove of the tax system.
Because these taxpayers are treated in the same manner and given the same rights as any other
taxpayer, the IRS does not concur with our described benefit. Management’s complete response
to the draft report is included as Appendix V.
Please contact me at (202) 622-6510 if you have questions or Michael E. McKenney, Assistant
Inspector General for Audit (Wage and Investment Income Programs), at (202) 622-5916.




                                                                                                3
                           Fiscal Year 2008 Statutory Audit of Compliance With Legal
                             Guidelines Prohibiting the Use of Illegal Tax Protester
                                           and Similar Designations




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Illegal Tax Protester Codes Were Not Used on the Master File...................Page 3
          Internal Revenue Service Publications Do Not Contain Illegal
          Tax Protester References ..............................................................................Page 3
          Illegal Tax Protester References Have Been Removed From the
          Internal Revenue Manual..............................................................................Page 4
          In Some Instances, Employees Used Illegal Tax Protester or
          Similar Designations in Case Narratives ......................................................Page 4
          Alternative Methods That Avoid the Need for Illegal Tax Protester
          Designations Have Been Established to Address Tax Compliance
          Issues.............................................................................................................Page 7

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – Outcome Measure ................................................................Page 14
          Appendix V – Management’s Response to the Draft Report .......................Page 16
         Fiscal Year 2008 Statutory Audit of Compliance With Legal
           Guidelines Prohibiting the Use of Illegal Tax Protester
                         and Similar Designations




                      Abbreviations

IRS             Internal Revenue Service
RRA 98          IRS Restructuring and Reform Act of 1998
                       Fiscal Year 2008 Statutory Audit of Compliance With Legal
                         Guidelines Prohibiting the Use of Illegal Tax Protester
                                       and Similar Designations




                                             Background

Internal Revenue Service (IRS) Restructuring and Reform Act of 1998 (RRA 98)1
Section (§) 3707 prohibits the IRS from using Illegal Tax Protester or any similar designations.
In addition, the law requires the removal of all existing Illegal Tax Protester codes from the
Master File2 and instructs IRS employees to disregard any such designation not located on the
Individual Master File.3
Prior to enactment of the RRA 98, the IRS used the Illegal Tax Protester Program to identify
individuals and businesses that were using methods to protest the laws that were not legally
valid. Employees identified taxpayers for referral to the Program when their tax returns or
correspondence contained specific indicators of noncompliance with the tax law, such as the use
of arguments that had been repeatedly rejected by the courts. Tax protester coordinators were
responsible for determining whether a taxpayer should be included in the Illegal Tax Protester
Program. If a taxpayer was classified as an Illegal Tax Protester, the taxpayer’s record was
coded as such on the Master File. Once a taxpayer’s account was coded, certain tax enforcement
actions were accelerated. The designation was also intended to alert employees to be cautious so
they would not be drawn into confrontations with taxpayers.
Congress was concerned that some taxpayers were being permanently labeled and stigmatized by
the Illegal Tax Protester designation. There were many instances of taxpayers who subsequently
complied with the tax laws but continued to be labeled as Illegal Tax Protesters. The concern
was that this label could bias IRS employees and result in unfair treatment of the taxpayer.
Internal Revenue Code § 7803(d)(1)(A)(v)
(2000 Suppl. 4) requires the Treasury Inspector
General for Tax Administration to annually evaluate                    The Treasury Inspector General
                                                                          for Tax Administration is
IRS compliance with the prohibition against using                       required to annually evaluate
Illegal Tax Protester or any similar designations. This                   IRS compliance with the
is our tenth review since Fiscal Year 1999. These                      prohibition against using Illegal
reviews have identified areas for improvement to help                    Tax Protester or any similar
the IRS comply with the Illegal Tax Protester                                   designations.
designation prohibition.



1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  A database that stores various types of taxpayer account information. This database includes individual, business,
and employee plans and exempt organizations data.
3
  A database that maintains transactions or records of individual tax accounts.
                                                                                                             Page 1
                  Fiscal Year 2008 Statutory Audit of Compliance With Legal
                    Guidelines Prohibiting the Use of Illegal Tax Protester
                                  and Similar Designations



This review was performed in the Criminal Investigation Division, the Office of the
National Taxpayer Advocate, the Office of Appeals, and the Office of Chief Counsel in
Washington, D.C.; the Small Business/Self-Employed Division in New Carrollton, Maryland;
and the Wage and Investment Division in Atlanta, Georgia, during the period July 2007 through
February 2008. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                       Page 2
                    Fiscal Year 2008 Statutory Audit of Compliance With Legal
                      Guidelines Prohibiting the Use of Illegal Tax Protester
                                    and Similar Designations




                                 Results of Review

Illegal Tax Protester Codes Were Not Used on the Master File
Prior to enactment of the RRA 98, the IRS used Illegal Tax Protester indicators on the
Master File to accelerate collection activity for taxpayers who were delinquent in filing tax
returns or paying their taxes. These indicators were also intended to alert employees that
problems might be encountered when dealing with nonfilers and delinquent taxpayers.
Congress was concerned about use of the Illegal Tax Protester designation because:
   •   Taxpayers were labeled as Illegal Tax Protesters without regard to their filing obligations
       or compliance.
   •   Illegal Tax Protester indicators were not always reversed when taxpayers became
       compliant with their tax obligations.
RRA 98 § 3707 required the IRS to remove the existing Illegal Tax Protester designations from
taxpayers’ accounts on the Master File beginning January 1, 1999.
In prior reviews, we reported that the IRS had removed these designation codes from the
Master File as required by the law. Based on our analysis of approximately 1.1 million taxpayer
accounts coded for accelerated collection activity, the IRS has not reintroduced Illegal Tax
Protester codes on the Master File. The law also prohibits using any designation similar to
Illegal Tax Protester. We matched approximately 57,000 taxpayer accounts formerly coded as
Illegal Tax Protesters to the Master File and confirmed that the IRS had not input any other type
of similar designation on these accounts.

Internal Revenue Service Publications Do Not Contain Illegal Tax
Protester References
To help promote compliance with RRA 98
§ 3707, IRS management issued directives
for employees to update various
publications to eliminate references to
Illegal Tax Protester terminology and
programs. Our reviews prior to Fiscal
Year 2002 identified several publications
that contained Illegal Tax Protester
references. When notified of the problem,

                                                                                            Page 3
                       Fiscal Year 2008 Statutory Audit of Compliance With Legal
                         Guidelines Prohibiting the Use of Illegal Tax Protester
                                       and Similar Designations



the IRS either revised the publications or labeled them as being obsolete. Our review of
available publications on the Servicewide Electronic Research Program,4 IRS public Internet web
site (IRS.gov), Electronic Publishing web site, and 2007 Federal Tax Products CD-ROM did not
identify any current Illegal Tax Protester references. By eliminating these references from its
forms, documents, letters, and training materials, the IRS avoids the implication that the use of
this terminology is permissible.

Illegal Tax Protester References Have Been Removed From the
Internal Revenue Manual
In each of our nine prior reviews, we identified
Illegal Tax Protester references in various
formats of the Internal Revenue Manual.5 The
Official Internal Revenue Manual is
maintained on the Electronic Publishing web
site. However, it is also found electronically
on the Internal Revenue Manual online, the
Servicewide Electronic Research Program,
IRS.gov, and CD-ROM, as well as in paper
format. The graphic to the right shows the
relationship between the Official Internal
Revenue Manual and the various formats
available to IRS employees.
During our Fiscal Year 2008 review, we
verified that no Illegal Tax Protester references
existed in the Internal Revenue Manual.
Removing all Illegal Tax Protester references
from the Internal Revenue Manual will help
avoid any inappropriate implication to
taxpayers.

In Some Instances, Employees Used Illegal Tax Protester or Similar
Designations in Case Narratives
Out of approximately 65.2 million records and cases, we found 430 instances in which
employees had labeled taxpayers as “Tax Protester,” “Illegal Tax Protester,” “Constitutionally


4
  An electronic researching tool containing many former paper research applications (e.g., publications, the Internal
Revenue Manual, the Probe and Response Guide).
5
  A manual containing the IRS’ internal guidelines.
                                                                                                              Page 4
                   Fiscal Year 2008 Statutory Audit of Compliance With Legal
                     Guidelines Prohibiting the Use of Illegal Tax Protester
                                   and Similar Designations



   •   The Frivolous Return Program, which handles taxpayers who file tax returns based on
       some type of frivolous argument that justifies payment of little or no income tax. This
       would include filing a tax return claiming no income because paying taxes is voluntary,
       claiming to be a citizen of a State but not a citizen of the United States, etc.
   •   The Nonfiler Program, which handles taxpayers who fail to file their required tax returns.
   •   The Potentially Dangerous Taxpayer/Caution Upon Contact Program, which handles
       taxpayers who have assaulted and/or threatened IRS employees.
Each of these Programs is set up to address various issues IRS employees might encounter when
dealing with taxpayers protesting the legality of paying their income taxes. Unlike the former
Illegal Tax Protester Program, each current Program addresses a specific taxpayer behavior. In
addition, taxpayers are not assigned to these individual Programs on a permanent basis, as was
the case in the Illegal Tax Protester Program.
None of our prior reviews have identified instances in which the Illegal Tax Protester indicator
was needed on a taxpayer’s account to either accelerate tax enforcement actions and/or alert IRS
employees to be cautious when dealing with the taxpayer. In addition, management has advised
us that prohibiting use of the Illegal Tax Protester designation has had no negative impact on
collection or examination activities.

Management’s Response: We made no recommendations in this report. However, IRS
management believes that use of Illegal Tax Protestor or similar designations does not affect the
way in which the IRS deals with taxpayers who disapprove of the tax system. Because these
taxpayers are treated in the same manner and given the same rights as any other taxpayer, the
IRS does not concur with our described benefit.




                                                                                           Page 8
                       Fiscal Year 2008 Statutory Audit of Compliance With Legal
                         Guidelines Prohibiting the Use of Illegal Tax Protester
                                       and Similar Designations



                                                                                                    Appendix I

          Detailed Objective, Scope, and Methodology

The objective of this review was to determine whether the IRS complied with RRA 981
§ 3707 and its own internal guidelines that prohibit IRS officers and employees from referring to
taxpayers as Illegal Tax Protesters or any similar designations. The Treasury Inspector General
for Tax Administration is required to annually evaluate compliance with the prohibition against
using Illegal Tax Protester or any similar designations.2 Unless otherwise noted, our limited tests
of the reliability of data obtained from various IRS systems did not identify any errors. We
tested the reliability of the data by scanning the data received for blank, incomplete, illogical, or
improper data. In addition, we traced a judgmental sample for each data set to the source IRS
files to ensure accuracy. We did not perform any testing of internal controls over the systems
that were the sources of our data. To accomplish the objective, we:
I.       Determined if the Illegal Tax Protester coding on the Master File3 was removed by
         reviewing all tax accounts coded for accelerated collection activity as of September 2007
         on the Business Master File4 and Individual Master File.5 We analyzed 1,121,322 Master
         File records containing a Transaction Code 148 on the account.
         We also matched our historic computer extract of approximately 57,000 taxpayers
         designated as Illegal Tax Protesters before the RRA 98 was enacted to our records with a
         Transaction Code 148 to determine if any new common codes were being used to classify
         the taxpayers as Illegal Tax Protesters.
II.      Determined if the Internal Revenue Manual6 contained Illegal Tax Protester or any
         similar designations by performing key word searches of the IRS Electronic Publishing
         web site, the Internal Revenue Manual online, the Servicewide Electronic Research
         Program,7 IRS.gov, CD-ROM, and the paper Internal Revenue Manual.



1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  Internal Revenue Code § 7803(d)(1)(A)(v) (2000 Suppl. 4).
3
  A database that stores various types of taxpayer account information. This database includes individual, business,
and employee plans and exempt organizations data.
4
  A database that consists of Federal tax-related transactions and accounts for businesses. These include
employment taxes, income taxes on businesses, and excise taxes.
5
  A database that maintains transactions or records of individual tax accounts.
6
  A manual containing the IRS’ internal guidelines.
7
  An electronic researching tool containing many former paper research applications (e.g., publications, the Internal
Revenue Manual, the Probe and Response Guide).
                                                                                                              Page 9
                      Fiscal Year 2008 Statutory Audit of Compliance With Legal
                        Guidelines Prohibiting the Use of Illegal Tax Protester
                                      and Similar Designations



III.    Determined if IRS publications contained Illegal Tax Protester or any similar
        designations by performing key word searches of the Servicewide Electronic Research
        Program, IRS.gov, and the IRS Electronic Publishing web site in August 2007 and the
        IRS 2007 Federal Tax Products CD-ROM in December 2007.
IV.     Determined if employees were using Illegal Tax Protester or any similar designations
        within taxpayer case narratives on the Integrated Collection System8 by securing a copy
        of the database and analyzing 1,071,323 cases open as of September 2007 with history
        action dates between October 2006 and September 2007.
V.      Determined if employees were using Illegal Tax Protester or any similar designations
        within taxpayer case narratives on the Automated Collection System9 by securing a copy
        of the database10 and analyzing 2,424,977 cases open as of September 2007 with history
        action dates between October 2006 and September 2007.
VI.     Determined if employees were using Illegal Tax Protester or any similar designations
        within taxpayer case narratives on the Taxpayer Advocate Management Information
        System11 by securing a copy of the database as of September 2007 and analyzing
        52,275 open cases with activity between October 2006 and September 2007.
VII.    Determined if employees were using Illegal Tax Protester or any similar designations
        within the taxpayer case narratives on Desktop Integration12 by securing a copy of the
        database as of September 2007 and analyzing 59,198,718 records with activity between
        October 2006 and September 2007.
VIII.   Determined if employees were using Illegal Tax Protester or any similar designations
        within taxpayer case narratives on the Appeals Centralized Database System13
        by securing a copy of the database as of September 2007 and analyzing
        2,415,457 open/closed Appeals function narrative comment records with activity
        between October 2006 and September 2007.




8
  A system used by Collection function employees to report taxpayer case time and activity.
9
  A telephone contact system through which telephone assistors collect unpaid taxes and secure tax returns from
delinquent taxpayers who have not complied with previous notices.
10
   The Automated Collection System did not always contain employee identifying information from which we could
determine the number of employees using Illegal Tax Protester or a similar designation. We assumed that each
comment was made by a different employee.
11
   An electronic database and inventory control system used by Taxpayer Advocate Service employees.
12
   Provides employees access to multiple IRS systems through their computers and allows for inventory
management, case delivery, history narratives, print-to-fax capabilities for sending information to taxpayers, and
electronic referral generation.
13
   A computerized system used to track case receipts, record case time, document case actions, and monitor the
progress of Appeals function workload.
                                                                                                         Page 10
                       Fiscal Year 2008 Statutory Audit of Compliance With Legal
                         Guidelines Prohibiting the Use of Illegal Tax Protester
                                       and Similar Designations



IX.     Determined if employees were using Illegal Tax Protester or any similar designations
        within the taxpayer case narratives on the Criminal Investigation Management
        Information System14 by analyzing 6,975 Criminal Investigation Division cases opened
        and/or closed between October 2006 and September 2007.
        Due to concerns with providing us access to sensitive grand jury information, the IRS
        provided us with a manually edited extract limited to Criminal Investigation Division
        cases from the Criminal Investigation Management Information System. While our very
        limited validation tests and audit results seem reasonable based on prior experience with
        this database, we are required by generally accepted government auditing standards to
        disclose this limitation in the scope of our work.
X.      Determined if the IRS is using any Frivolous Return Program15 codes as replacements for
        Illegal Tax Protester designations by reviewing guidance provided for the Frivolous
        Return Program and interviewing its Program Coordinator.
XI.     Determined if the IRS Nonfiler Program16 is in compliance with the provisions
        established by RRA 98 § 3707(b) by reviewing guidance provided for the Nonfiler
        Program and interviewing its Program Coordinator.
XII.    Determined if there is any relationship between Illegal Tax Protester designations and
        Potentially Dangerous Taxpayer/Caution Upon Contact indicator use on the Master File
        by reviewing guidance provided for the Potentially Dangerous Taxpayer/Caution Upon
        Contact Program17 and interviewing its Program Coordinator.




14
   A computerized system used to track the status and progress of criminal investigations.
15
   The Frivolous Return Program handles taxpayers who file tax returns based on some type of frivolous argument
that justifies payment of little or no income tax. This would include filing a tax return claiming no income because
paying taxes is voluntary, claiming to be a citizen of a State but not a citizen of the United States, etc.
16
   The Nonfiler Program handles taxpayers that fail to file their required tax returns.
17
   The Potentially Dangerous Taxpayer/Caution Upon Contact Program handles taxpayers that have assaulted and/or
threatened IRS employees.
                                                                                                           Page 11
                  Fiscal Year 2008 Statutory Audit of Compliance With Legal
                    Guidelines Prohibiting the Use of Illegal Tax Protester
                                  and Similar Designations



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Marybeth H. Schumann, Director
Bryce Kisler, Audit Manager
Alan Lund, Acting Audit Manager
Craig Pelletier, Lead Auditor
Tanya Adams, Senior Auditor
David Hartman, Senior Auditor




                                                                                   Page 12
                  Fiscal Year 2008 Statutory Audit of Compliance With Legal
                    Guidelines Prohibiting the Use of Illegal Tax Protester
                                  and Similar Designations



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Chief, Appeals AP
Chief, Criminal Investigation SE:CI
Chief Counsel CC
National Taxpayer Advocate TA
Chief Information Officer OS:CIO
Director, Office of Research, Analysis, and Statistics RAS
Director, Communications and Liaison, National Taxpayer Advocate TA:CL
Director, Office of Servicewide Policy, Directives, and Electronic Research RAS:SPDER
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
   GAO/TIGTA Liaison, Deputy Commissioner for Operations Support OS
   GAO/TIGTA Liaison, Deputy Commissioner for Services and Enforcement SE
   GAO/TIGTA Liaison, National Taxpayer Advocate TA
   GAO/TIGTA Liaison, Chief Information Officer OS:CIO:SM:PO
   Chief, GAO/TIGTA/Legislative Implementation Branch SE:S:CLD:PSP:GTL
   Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                    Page 13
                      Fiscal Year 2008 Statutory Audit of Compliance With Legal
                        Guidelines Prohibiting the Use of Illegal Tax Protester
                                      and Similar Designations



    •   From Desktop Integration,5 approximately 59.2 million records with history action dates
        between October 2006 and September 2007 and identified 183 taxpayer cases with
        narratives that contained Illegal Tax Protester or a similar designation.
    •   From the Integrated Collection System,6 approximately 1.1 million open cases with
        history action dates between October 2006 and September 2007 and identified
        167 taxpayer cases with narratives that contained Illegal Tax Protester or a similar
        designation.
    •   From the Taxpayer Advocate Management Information System,7 approximately
        52,000 open cases with history action dates between October 2006 and September 2007
        and identified 7 taxpayer cases with narratives that contained Illegal Tax Protester or a
        similar designation.




5
  Provides employees access to multiple IRS systems through their computers and allows for inventory management,
case delivery, history narratives, print-to-fax capabilities for sending information to taxpayers, and electronic
referral generation.
6
  A system used by Collection function employees to report taxpayer case time and activity.
7
  An electronic database and inventory control system used by Taxpayer Advocate Service employees.
                                                                                                       Page 15
     Fiscal Year 2008 Statutory Audit of Compliance With Legal
       Guidelines Prohibiting the Use of Illegal Tax Protester
                     and Similar Designations



                                                    Appendix V

Management’s Response to the Draft Report




                                                           Page 16
